APPENDIX A
WHITE CARD DENIAL FROM THE TEXAS COURT OF
CRIMINAL APPEALS.

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

,, T*#
2/24/2021
fcg*
-£7-*.
SANCHEZ, GILBERT
Tr. C|^Np.'ip10D0274S-120
WR-84,766-03
This is to advise that the Court ras ^tegied wittioj#written order the motion for leave
to file the original application for wMf fiaFSlTs'/eorpus.
Deana Williamson, Clerk
GILBERT SANCHEZ
CLEMENTS UNIT - TDC # 1712910
9601 SPUR 591
AMARILLO, TX 79107-9606

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

4*3835,*
dv *

'i&i
I *
I 3* *

ft
ass*

t

UA
*W

,AS

Oj
12/28/2020
Tr. Ot. No. 2®fflW27^120
WR-84,766-03
SANCHEZ, GILBERT
On this day, the motion for leaveMo rite the oriPjindr application for writ of habeas
corpus and original application for wriTof bab,ea^ corpus has been received and
presented to the Court.
Deana Williamson, Clerk
&si

GILBERT SANCHEZ
CLEMENTS UNIT - TDC # 1712910
9601 SPUR 591
AMARILLO, TX 79107-9606

1

APPENDIX B
Petitioner’s

“MOTION

FOR

LEAVE

TO

FILE

EXTRAORDINARY WRIT TO REVIEW THE TRIAL
COURT’S ORIGINAL GRANTING OF A NEW TRIAL
WITH ATTACHED BRIEF IN SUPPORT.

GILBERT SANCHEZ
TDCJ-CID#1712910
WILLIAM CLEMENTS UNIT
9601 SPUR 591
AMARILLO, TEXAS
79107-9606
HONORABLE CLERK
COURT OF CRIMINAL APPEALS
P.O. BOX 12308, CAPITAL STATION
AUSTIN, TEXAS
78711
Dear Honorable Clerk:
Please find enclosed for presentation to the Honorable Justices, my
“MOTION FOR LEAVE TO FILE EXTRAORDINARY WRIT TO
REVIEW THE TRIAL COURT’S ORIGINAL GRANTING OF A
NEW TRIAL WITH ATTACHED APPLICATION BRIEF IN
SUPPORT,” for their consideration.
Thank you in advance for your time and attention in this matter.
Sincerely,
Gilbert Sanchez

IN THE TEXAS
COURT OF CRIMINAL APPEALS
jt'kji-kjckjtjckjtjejeje'ie'jck'klelelf'je'k'k'k'filt'k'k'k'kle'k’k’k’k'k'k’k'k

From a Judgment & Sentence rendered in the
120th District Court from El Paso County

Court of Appeals No. 08-11-00137-CR
Court of Criminal Appeals No. WR-84,766-01

IN RE:
GILBERT SANCHEZ, RELATOR
MOTION FOR LEAVE TO FILE EXTRAORDINARY WRIT
TO REVIEW THE TRIAL COURT’S ORIGINAL GRANTING OF A NEW
TRIAL WITH ATTACHED APPLICATION BRIEF IN SUPPORT

TO THE HONORABLE JUSTICES OF SAID COURT:
Comes now, Gilbert Sanchez, (herein after “Relator”), under Rule 72.1
of the Texas Rules of Appellate Procedure, and Article V., §5 of the Texas
Constitution. Relator submits his Application for Extraordinary Writ,
-l-

asking this Court to review the trial court’s original decision to grant
Relator a new trial which was ultimately denied by the Eighth Court of
Appeals resulting in Relator serving an illegal sentence (actual innocence),
denial of due process. Under any exception to the procedural default,
Relator’s claim demonstrates that he is actually innocent of the underlying
claim, Relator’s claim represents a fundamental miscarriage of justice
resulting in a fundamentally unjust incarceration. Relator will show this
Court the following in support of same.
INTRODUCTION
In 1978, the Legislature amended the Texas Constitution to broaden this
Court’s power to grant extraordinary relief in cases involving criminal
matter. The Texas Legislature expanded the writ power of this Court to
include among other Writ powers, motions that are extraordinary in
character. In determining the specific nature of the extraordinary relief
sought, the Court will not be limited by the denomination of the pleadings,
but will look to the essence of the pleadings, including prayers, as well as
the record. See Wade vMays, 689 S.W2d 893 (Tex.Crim.App.1985).
-2-

JURISDICTION OF THE CASE
This Court is empowered by Article V., §5 of the Texas Constitution to
issue extraordinary writs in all criminal matters.
STATEMENT OF THE CASE
A jury found Relator guilty of aggravated sexual assault and sentenced
to sixty-five years’ imprisonment. Relator appealed. While Relator’s appeal
was pending, the trial court granted Relator a new trial. However, the State
appealed, and the Eighth Court of Appeals reversed the lower court’s grant
of a new trial and reinstated Relator’s conviction. See State v Sanchez, 393
S.W. 3d 798 (Tex.App.El Paso 2012).
STATEMENT OF THE CLAIM
Due to the procedural posture of this case, this writ must be entertained
extraordinarily. Relator claims, and the trial court agreed, that he was only
legally eligible upon conviction to be sentenced under a second-degree
felony of 2-20 years. Instead, Relator was sentenced to sixty-five years
imprisonment under a first-degree felony.

However, the trial court

conceded that she failed to properly charge the jury by omitting a specific
-3-

element of the charge. This is a clear denial of Relator’s rights to due
process under the fourteenth amendment to the United States Constitution.
STATEMENT OF THE FACTS
This is not the type of error that can be waived. Due to the trial court’s
omitting an element ofthe charged offense, the trial court conceded that she
had misdirected the jury. Relator was therefor not legally eligible for the
sentence he received. See Haley v Cockrell', 306 F. 3d 257 (5th Cir. 2002).
Relator could only be sentenced upon conviction to a second-degree felony,
not a first-degree felony. See Mizell v Stale, 119 S. W. 3d 804
(Tex.Crim.App.2003)(“A sentence that is outside the maximum or
minimum range of punishment is unauthorized by law and therefore
illegal and, unlike most trial errors which are forfeited if not timely
asserted, a party is not required to make a contemporaneous objection to
the imposition of an illegal sentence”).
Relator establishes his extraordinary writ on the following grounds
which he asserts amount to a prima facia showing that indulgence should
be conceded to file and set this case for submission and hearing on the
-4-

following facts:
FACT ONE. Relator argues he has a well-defined right under the due
process clause of the 14th amendment to the United States Constitution to
relief based on constitutional error. Relator has exhausted his appellate
remedies and filed an initial writ of habeas corpus. He has no adequate
remedy at law to redress the unlawfulness committed by the trial court
when it misdirected the jury. Relator contends unequivocally that the trial
court was statutorily mandated, or, by precedent case law, to properly
instruct the jury on every element of the charged offense.
The facts and circumstances taken together with the governing statute
and case law but one rational decision under unequivocal, well settled (i.e.,
extant statutory, constitutional, or case law sources), and clearly controlling
legal principles.
FACT TWO. The Court of Appeals’ decision to deny relief in this case
offends any notion of due process of law. The United States Constitution
forbids conviction absent proof beyond a reasonable doubt of every fact

-5-

necessary to constitute the crime. See/fi re Winship, 90S.Ct 1068 (1970).
FACT THREE.

In the interest of justice, this Court may enforce

jurisdictional powers to rectify and/or remedy an unlawful sentence to
balance Relator’s interests in the vindication of his legal right to be
sentenced according to the law, and the State’s interest in the finality of
Relator’s litigation to reform the trial court’s constitutional error of
misdirecting the jury.
The interest ofjustice confers upon this Court the prerogative to remedy
the void portion of the sentence, that is, to sentence Relator as a seconddegree felony offender rather that a first-degree felony offender. The only
redress ever endeavored for by the Relator was to reform the judgment to
reflect a conviction for a second-degree felony.
PRAYER FOR RELIEF
WHEREFORE, PREMISES CONSIDERED, Relator prays that this
Court will grant leave to file an Application For Extraordinary Writ to
reform the judgment in this case to reflect a conviction for a second-degree
felony because the trial court’s jury charge violated Relator’s constitutional
rights to due process of law.

-6-

IN THE TEXAS
COURT OF CRIMINAL APPEALS
'kiele'kJcIcklckJck’k’klckidtlfTk'k'kJtJf'k'krkJe’k'k'k'k'k’k'klt'k’k

From a Judgment & Sentence rendered in the
120th District Court from El Paso County

Court of Appeals No. 08-11-00137-CR
Court of Criminal Appeals No. WR-84,766-01
•kjcSticifk-k'jc'kjc'jtjcicjckJfitlijcfcjfkjc'k-k-kjtitJckjcjejcjfftitjcjficjtlckjficicie'jcjt

IN RE:
GILBERT SANCHEZ, RELATOR

RELATOR’S APPLICATION FOR EXTRAORDINARY WRIT
TO REVIEW THE TRIAL COURT’S ORIGINAL GRANTING
OF A NEW TRIAL WITH ATTACHED APPLICATION
BRIEF IN SUPPORT
leJtjtjtjckjejffcIcjtjcickJcjcjficlejtjfkie'kJc-k'k-kjfkje-k-k-k'kjckJckjtisiciejtjs-kicjtjt

-1-

TO THE HONORABLE JUSTICES OF SAID COURT:
Comes now, Gilbert Sanchez, (herein after “Relator”), under Rule 72.1
of the Texas Rules of Appellate Procedure, and Article V., §5 of the Texas
Constitution. Relator submits his Application for Extraordinary Writ,
asking this Court to review the trial court’s original decision to grant
Relator a new trial which was ultimately denied by the Eighth Court of
Appeals resulting in Relator serving an illegal sentence (actual innocence),
denial of due process. Under any exception to the procedural default,
Relator’s claim demonstrates that he is actually innocent of the underlying
claim, Relator’s claim represents a fundamental miscarriage of justice
resulting in a fundamentally unjust incarceration. Relator will show this
Court the following in support of same.
INTRODUCTION
In 1978, the Legislature amended the Texas Constitution to broaden this
Court’s power to grant extraordinary relief in cases involving criminal

-2-

matter. The Texas Legislature expanded the writ power of this Court to
include among other Writ powers, motions that are extraordinary in
character. In determining the specific nature of the extraordinary relief
sought, the Court will not be limited by the denomination of the pleadings,
but will look to the essence of the pleadings, including prayers, as well as
the record. See Wade v Mays, 689 S.W.2d 893 (Tex.Crim.App.1985).
JURISDICTION OF THE CASE
This Court is empowered by Article V., §5 of the Texas Constitution to
issue extraordinary writs in all criminal matters.
STATEMENT OF THE CASE
A jury found Relator guilty of aggravated sexual assault and sentenced
to sixty-five years’ imprisonment. Relator appealed. While Relator’s appeal
was pending, the trial court granted Relator a new trial. However, the State
appealed, and the Eighth Court of Appeals reversed the lower court’s grant
of a new trial and reinstated Relator’s conviction. See State v Sanchez, 393
S. W. 3d 798 (Tex.App.El Paso 2012).
STATEMENT OF THE CLAIM
-3-

Due to the procedural posture of this case, this writ must be entertained
extraordinarily. Relator claims, and the trial court agreed, that he was only
legally eligible upon conviction to be sentenced under a second-degree
felony of 2-20 years. Instead, Relator was sentenced to sixty-five years
imprisonment under a first-degree felony.

However, the trial court

conceded that she failed to properly charge the jury by omitting a specific
element of the charge. This is a clear denial of Relator’s rights to due
process under the fourteenth amendment to the United States Constitution. .
STATEMENT OF THE FACTS
This is not the type of error that can be waived. Due to the trial court’s
omitting an element ofthe charged offense, the trial court conceded that she
had misdirected the jury. Relator was therefor not legally eligible for the
sentence he received. See Haley v Cockrell, 306 F. 3d 257 (5th Cir. 2002).
Relator could only be sentenced upon conviction to a second-degree felony,
not a first-degree felony. See Mizell v State, 119 S. W. 3d 804
(Tex.Crim.App.2003)(“A sentence that is outside the maximum or
minimum range of punishment is unauthorized by law and therefore
-4-

illegal and, unlike most trial errors which are forfeited if not timely
asserted, a party is not required to make a contemporaneous objection to
the imposition of an illegal sentence”).
Relator establishes his extraordinary writ on the following grounds
which he asserts amount to a prima facia showing that indulgence should
be conceded to file and set this case for submission and hearing on the
following facts:
FACT ONE. Relator argues he has a well-defined right under the due
process clause of the 14th amendment to the United States Constitution to
relief based on constitutional error. Relator has exhausted his appellate
remedies and filed an initial writ of habeas corpus. He has no adequate
remedy at law to redress the unlawfulness committed by the trial court
when it misdirected the jury. Relator contends unequivocally that the trial
court was statutorily mandated, or, by precedent case law, to properly
instruct the jury on every element of the charged offense.
The facts and circumstances taken together with the governing statute
and case law but one rational decision under unequivocal, well settled (i.e.,
-5-

extant statutory, constitutional, or case law sources), and clearly controlling
legal principles.
FACT TWO. The Court of Appeals’ decision to deny relief in this case
offends any notion of due process of law. The United States Constitution
forbids conviction absent proof beyond a reasonable doubt of every fact
necessary to constitute the crime. See In re Winship, 90S.Ct 1068 (1970).
FACT THREE.

In the interest of justice, this Court may enforce

jurisdictional powers to rectify and/or remedy an unlawful sentence to
balance Relator’s interests in the vindication of his legal right to be
sentenced according to the law, and the State’s interest in the finality of
Relator’s litigation to reform the trial court’s constitutional error of
misdirecting the jury.
The interest ofjustice confers upon this Court the prerogative to remedy
the void portion of the sentence, that is, to sentence Relator as a seconddegree felony offender rather that a first-degree felony offender. The only
redress ever endeavored for by the Relator was to reform the judgment to

-6-

reflect a conviction for a second-degree felony.
ARGUMENTS & AUTHORITIES
This Honorable Court under a trial court’s abuse of discretion standard
will not reverse an error by the trial court unless it is outside the zone of
reasonable disagreement. However, in the instant case, despite the trial
court’s own admission that she misdirected the jury in Relator’s case, this
Honorable Court allows Relator’s unlawful sentence to stand when the trial
court’s decision is not outside the zone of reasonable disagreement.
The Court of Appeals Eighth District of Texas at El Paso states that
the jury in Relator’s case would have found the essential facts
(elements) had it been properly instructed.
This statement by the court of appeals is erroneous because it’s in
direct conflict with the trial court’s own words that she misdirected the
jury, therefore, anyway you look at this error, the jury could not have
been properly instructed and therefore the court of appeals’ statement
is erroneous.

-7-

A jury verdict, if based on an instruction that allows it to convict
without properly finding the facts supporting each element of the crime
is error. See Sandstrom vMontana, 99 S.Ct 2450 (1979). Such error is
not corrected merely because an appellate court, upon review. is satisfied
that the jury would have found the essential facts had it been properly
instructed. See United States v Ben M. Hogan. Inc., 769 F.2d 1293,1298
(8th Cir. 1985). The error cannot be treated as harmless. See Connecticut
v Johnson, 103 S.Ct 769,977-78 (1983); see also Chapman v California,
87S.Ct. 824 (1967).
Despite the above stated, that is exactly what has transpired in Relator’s
case. This is fully illustrated in the eighth district court of appeals’ opinion
which is attached as EXHIBIT #1. incorporated herein by reference as if
fully printed herein in support of this argument for this Honorable Court’s
review. The question standing before this Honorable Court is will this
Court allow this fundamental miscarriage ofjustice to continue by turning
a blind eye due to procedural requirements, or will this Court exercise its
supervisory powers and correct this fundamental miscarriage of justice
-8-

which case law firmly supports and the court of appeals erroneously
denied?
Relator’s appellate counsel, Ruben Morales, correctly argued that
Realtor was unquestionably denied due process, the right to trial by jury
and effective assistance of counsel because he was convicted and sentenced
for a charge that was neither alleged in the indictment nor presented to the
jury for consideration.
The indictment in Relator’s case only allowed upon conviction that
Relator be sentenced under a second-degree felony (2-20 years). However,
Relator was convicted and sentenced under a first-degree felony to sixthfive years imprisonment.
On April 21st, 2011, Relator’s counsel filed a timely Notice of Appeal
and Motion for New Trial. The trial court granted Relator a new trial. The
trial court held that by submitting a first-degree felony charge to the jury
when in fact, Relator was only charged with a second-degree felony, it had
misdirected the jury regarding the law and, it allowed Relator to be
sentenced incorrectly.
-9-

The trial court further expressed its concern that based on the
indictment, Relator could only be convicted of sexual assault. The trial
court stated she was bothered by the omission of the word “imminent” in
the charge because “that language....is the only way that you can be
convicted of an aggravated sexual assault as opposed to just sexual
assault”. The trial court concluded that the charge was incorrect and
misdirected the jury. The trial court further noted that the absence of the
aggravating factor would change the applicable punishment range. The trial court stated that this omitted element was “a requirement to find
aggravation, and it’s important because the aggravation changes the
punishment range,” and “if that’s defective, then you have a different
punishment range.” The trial court then reiterated “the charge was wrong.”
Based on its concerns with the legality of relator’s conviction and sentence,
the trial court granted Relator a new trial.
Despite the above stated by the trial court judge who presided over
Relator’s trial and admitting that she had misdirected the jury, the State
appealed and despite conceding the absence of a key element necessary to
-10-

convict a person of aggravated sexual assault, the State insisited and, the
Eighth Court of Appeals agreed, that because a jury could have found
imminence based on the evidence presented, the conviction and sentence
were not infirm.
This decision, especially given the trial court’s explanations, offends
any notion of due process of law under the 14th amendment. The United
States Constitution forbids conviction absent proof beyond a reasonable
doubt of every fact necessary to constitute the crime. See In re Winship, 90
S.Ct 1068 (1970). If the sixth amendment right to have a jury decide guilt
and innocence means anything, it means that the facts essential to
conviction must be proven beyond the jury’s reasonable doubt, not the
court of appeals. The question thus follows: If the jury was not given the
proper jury instruction that omitted the “imminence” required finding to
make the charge a first-degree felony instead of a second-degree felony and
the jury was not even able to deliberate on the imminence factor, it is
impossible for either the State, or the Court of Appeals to conclude that the

-li-

jury found all the facts necessary to convict. Just making this statement,
refutes it. The State and the Court of Appeals’ erroneous decision flies in
the face of Relator’s right to due process of law.
The grave error in this case is that the jury never was required to find the
necessary nexus between a first-degree and second-degree felony. Instead,
it was directed to basically conclude, through a misstatement of law, that
an element of the crime had been proved when in actuality, they were never
properly instructed on the law regarding the facts of the case.
Relator was charged by indictment with sexual assault. Although the
indictment was titled aggravated sexual assault, it did not contain the
elements required to prove aggravated sexual assault. Specifically, the
indictment did not allege that the complainant was placed in fear that death
would be imminently inflicted on her. Under Texas penal Code Section
22.02l(a)(2)(A)(ii), to commit aggravated sexual assault a person must
commit sexual assault and, “by act or words place the victim in fear
that...death...will be imminently inflicted on any person.”
Under Texas law, sexual assault is a second-degree felony punishable
-12-

by two to twenty years in prison. Texas Penal Code §§22.011; 12.33.
Aggravated Sexual Assault is a first -degree felony punishable by five to
ninety-nine years, or life in prison. Texas Penal Code §§22.021; 12.32.
In this case, Relator was never charged with aggravated sexual assault
and he was never tried for aggravated sexual assault. The trial court’s jury
charge simply tracked the indictment. The State conceded that the
indictment only charged Relator with sexual assault, an offense that carries
a possible sentence of 2 to 20 years in prison. Yet, he was convicted and
sentenced for aggravated sexual assault, an offense that carries a possible
sentence of 5-99 years or life in prison. Such a result is a clear due process
violation under the Fifth and Fourteenth Amendment of the United States
Constitution. See Dunn v United States, 442 U.S. 100, 106 (1979)(“To
uphold a conviction on a charge that was neither alleged in an indictment
nor presented to a jury at trial offends the most basic notions of due
process. Few constitutional principles are more firmly established than
a defendant’s right to be heard on the specific charges of which he is
accused. ”); Jackson v Virginia, 443 U.S. 307,314 (1979)(“Itisaxiomatic
-13-

that a conviction upon a charge not made or upon a charge not tried
constitutes a denial of due process. ”); McCormick v United States, 500
U.S. 257, 270 n.8 (1991)(“This Court has never held that the right to a
jury trial is satisfied when an appellate court retries a case on appeal
under different instructions and on a different theory that was ever
presented to the jury. Appellate courts are not permitted to affirm
convictions on any theory they please simply because thefacts necessary
to support the theory were presented to the jury. ”) See also Wooley v
State, 273 S.W. 3d 260, 271 (Tex.Crim.App.2008))(“Appellateys due
process rights were violated when the court of appeals affirmed his
conviction under a theory not submitted to thejury”). Relator was charged
with and tried for a second-degree felony. His conviction and sentence are
for a first-degree felony. Therefore, Relator’s right to due process have
been violated and he is entitled to relief.
It should further be noted that it was stipulated by both parties that if
called, trial counsel would testify to the following: “A basic part of
representing a criminal defendant is reviewing the charging instrument; in
-14-

this case Mr. Sanchez was charged by indictment. In this case, although I
did review the indictment, I did not notice that the indictment did not allege
the elements of imminence required to elevate the offense to a first-degree
felony. Had I noticed the missing element, I would have used that to limit
the range of punishment in this case to that of a second-degree felony. My
failure to do so or attempt to do so was not a strategic decision; my failure
to make any other objections relevant to the issue of the missing element
was not a strategic decision.”
The unending search for symmetry in the law can cause judges to forget
about justice. This should have been a simple case as the very judge who
presided over the trial with total recollection granted a new trial based on
her belief that the jury had been misdirected on the law, a misstatement of
law.
The State, and the Eighth District Court of Appeals all agreed with the
trial court judge that the trial court erroneously omitted from the jury
charge the aggravating element that the complainant feared her death was
imminent, thereby misdirecting the jury about the law. Therefore, Relator
-15-

is actually innocent of the underlying offense. However, the State, and
Court of Appeals claim that Relator suffered no egregious harm. That
statement, however, is contrary to law because this type of error cannot be
treated as harmless. Without the factual imminence finding which was not
presented to the jury, there is no basis for Relator’s conviction for a firstdegree felony, it follows inexorably that Relator has been denied due
process of law. See Thompson v Louisville, 362 U.S. 199 (1960); Jackson
v Virginia, 443 u.S. 307 (1979). And because that constitutional error
clearly and concededly resulted in the imposition of an unauthorized
sentence, it also follows that Relator is a “victim of a miscarriage of
justice,” entitled to relief.
WHEREFORE, PREMISES CONSIDERED, Relator prays this
Honorable Court find that he is entitled to the requested relief, that his
conviction and sentence be reversed and reformed to reflect a conviction
for sexual assault as alleged in the indictment with a jury determination
within the prescribed range of 2 to 20 years.
Respectfully submitted,

Gilbert Sanchez
-16-

EXHIBIT #1

£*M6lT *//.

COURT OF APPEALS
EIGHTH DISTRICT OF TEXAS
EL PASO, TEXAS

§

GILBERT SANCHEZ,

No. 08-11-00137-CR
§

Appellant,

Appeal from the
§

v.

120th Judicial District Court
§

THE STATE OF TEXAS,

of El Paso County, Texas
§

Appellee.

(TC# 20100D02745)
§
OPINION

Gilbert Sanchez appeals his conviction for aggravated sexual assault. In three issues,
Appellant maintains that (1) he suffered egregious harm from a defective jury charge that failed
to address the critical "imminence of harm” element of aggravated sexual assault. (2) the court
should have granted a mistrial during the punishment phase based on a witness’s comments that
she was

victim number nine,” and (3) trial counsel rendered constitutionally ineffective

assistance during cross-examination. We affirm.
BACKGROUND
Factual History
In December 2009, Appellant and Jeanette Ribail had been dating for more than a month.
During that period of time, Appellant and Ribail had a consensual sexual relationship.

However,

Ribail decided to break off her relationship with Appellant after RibaiPs cousin recognized
Appellant as the ex-husband of a former co-worker. Appellant’s cousin warned Ribail that
Appellant was “bad news.”

After Ribail asked Appellant about what her cousin had said,

Appellant became very upset. Ribail attempted to gradually distance herself from Appellant, but
he continued to try and contact her, wanting to know why she was withdrawing.
On December 30, 2009, Appellant tracked down Ribail at her sister’s trailer and told her
he wanted to speak with her about their relationship. Ribail stated that Appellant appeared to be
intoxicated. While Appellant was outside smoking, Ribail exited through the back door and
went back to her own trailer. Ribail testified that Appellant called her numerous times once he
realized she had left, and that after she refused to answer, he came to her trailer and broke down
the door after banging on her windows and screaming. Ribail further testified that Appellant
climbed on top of her and began screaming obscenities at her, and that a physical altercation
ensued after she attempted to push him off, with Appellant punching her, attempting to smother
her with a pillow, and telling her that he did not care if she died. Appellant then dragged her by
I

her hair to the bathroom, then forced her to clean the blood off her body after threatening her
with a pair of scissors, stating that he would use them on her if she attempted to leave and telling
her that she and him needed to talk about their relationship. He then told her it was time to go to
the bedroom and grabbed her arm. Ribail indicated to Appellant she did not want to have sex by
shaking her head no, but Appellant proceeded to have intercourse with her

over her protest.

Ribail testified that she cried during the rape but did not physically resist because she was afraid
for her life.
An investigator who performed a rape kit testified that initial forensic testing indicated
the presumptive presence of seminal fluid on Ribail’s body.

2

However, further testing

demonstrated that no spermatozoa cells were contained inside the seminal fluid.
Procedural History
A jury found Appellant guilty of aggravated sexual assault, and he was sentenced to 65
years’ in prison. Sanchez appealed to this Court. Sanchez also moved for a new trial in the trial
court, asserting that the jury charge was defective, the evidence on the issue of imminence was
legally insufficient, and that the court should have granted a mistrial on punishment due to
Ribail s prejudicial comments. While Sanchez’s appeal was pending, the trial court granted
Sanchez a new trial, but did not specify in writing which ground it relied on in granting the
motion, nor did it provide findings of fact or conclusions of law when requested. The State
appealed, and we abated Sanchez’s appeal pending the outcome of the State’s appeal. On State’s
appeal, we reversed the lower court’s grant of a new trial and reinstated Sanchez’s conviction.
State v. Sanchez, 393 S.W.3d 798 (Tex.App.-El Paso 2012, pet. refd). The Court of Criminal
Appeals refused to grant Sanchez’s petition for discretionary review. On October 7, 2013, the
United States Supreme Court denied certiorari, making Sanchez’s conviction final. Sanchez v.
State, 134 S.Ct. 221, 187 L.Ed.2d 144 (2013). Mandate issued in Sanchez I, and we reinstated
Sanchez’s original appeal. This opinion addressing the merits of Sanchez’s original points as
follows.
DISCUSSION
Jury Charge Error
In Issue One, Appellant contends that the jury charge erroneously failed to specify that
Ribail’s fear of death was imminent, thereby allowing the jury to find him guilty of an
aggravated offense without first assessing whether proof beyond a reasonable doubt existed on
the improperly articulated aggravating element. The State concedes that failure to include an

imminence component as part of the aggravating element was error, but argues that

our previous

decision in the State’s appeal that Appellant suffered no resultant egregious harm governs under
the law of the case. We agree.
Law of the case is a court-created doctrine providing that, absent exceptional
circumstances, our resolution of an issue im an initial appeal generally controls our disposition of
the same issue in subsequent appeals arising from the

same case. Howlett v. State, 994 S.W.2d

663, 666 (Tex.Cnm.App. 1999); Ojeda v. State, 08-02-00404-CR, 2004 WL 2137653

, at *8

(Tex.App.-El Paso Sept. 24, 2004, pet. ref d)(not designated for publication); cf. York v. State,
342 S.W.3d 528, 553 (Tex.Crim.App. 201 l)(Womack, J„ concurring)(noting, in double jeopardy
context, that similar estoppel concept of issue preclusion prevents ’‘a party from relitigating an
issue. .. that was previously determined in a suit between the
consistency over time and “eliminates the

same parties”). The rule promotes

need for appellate courts to prepare opinions

discussing previously resolved matters” while still giving us the flexibility to “reconsider [ourj
earlier disposition of a point of law” in light of “circumstances that mitigate against relying
on
[our] prior decision.” Howlett, 994 S.W.2d at 666.
Such circumstances may include, inter alia,
recognition that our previous ruling was “ clearly erroneous,” id, or situations where “there has
been a change in the controlling law” in the time period between our first decision and the
subsequent appeal. Carroll v. State, 42 S.W.3d 129,

131 (Tex.Crim.App. 2001).

In our initial decision in the State’s appeal, State v. Sanchez,
El Paso 2012, pet. refd), cert, denied, 134 S.Ct. 221,

393 S.W.3d 798 (Tex.App.-

187 L.Ed.2d 144 (2013), we reversed the

trtal court's gram of a new trial and reinstated Sanchez's conviction, holding that he failed to
establish that he suffered “egregious harm”

from the unpreserved jury charge error as required

4

under Almanza) See Sanchez, 393 S.W.3d at 803-06. We rejected Sanchez’s contention that the
charge was egregiously harmful per se under Flores v. State, 48 S.W.3d 397, 402 (Tex.App.-Waco 2001, pet. refd), because the jury charge did not authorize the jury to convict Sanchez for
“conduct that is not an offense.” Sanchez, 393 S.W.3d at 805-06. In weighing harm, we noted
that although the jury charge language weighed in favor of a harm finding for failing to include
all relevant statutory language, any harm was cured by references to imminence in voir dire and
counsels’ closing arguments contextually referencing Ribail’s belief that her death was imminent
after Sanchez tried to smother her with a pillow. Id. at 804-05. We also held that the jury could
have found the three sub-elements comprising the “imminent death” element beyond a
reasonable doubt. Id.
Here, Appellant largely rehashes the same arguments as before. Given that we have
previously passed judgment on this exact issue, we find that law of the case governs and rely on
our previous ruling. Appellant did not suffer egregious harm from the erroneous jury charge.
Issue One is overruled.
Mistrial
In Issue Two, Appellant asserts that the trial court abused its discretion by failing to grant
a mistrial at punishment after a witness twice gave non-responsive testimony in which she
referred to herself as being “victim number nine.” We disagree.
Standard of Review and Applicable Law
A mistrial is the trial court’s remedy for improper conduct that is so prejudicial that
expenditure of further time and expense would be wasteful and futile.” Hawkins v. State, 135
S.W.3d 72, 77 (Tex.Crim.App. 2004)[Intemal quotation marks omitted]. We review the trial
A,mai^a v- State, 686 S.W.2d 157, 171 (Tex.Crim.App. 1984), superseded on other grounds by rule as stated in
(TexCrim Ani?™nfiv58 f ■2d.™7 Tex.Crim.App. 1988); see also Igo v. State. 210 S.W.3d 645. 646-47
(1 ex.Cnm.App. 2006)(applymg Almanza to jury charge errors presented in motion for new trial)

5

court’s mistrial ruling for abuse of discretion.

Coble v. State, 330 S.W.3d 253, 292

(Tex.Crim.App. 2010). “[A] mistrial should be granted only in cases where the reference was
clearly calculated to inflame the minds of the jury or was of such damning character as to
suggest it would be impossible to remove the harmful impression from the jurors’ minds.”
Young v. State, 283 S.W.3d 854, 878 (Tex.Crim.App. 2009)[Internal citation and quotation
marks omitted].

“Only in extreme circumstances, where the prejudice is incurable, will a

mistrial be required.” Hawkins, 135 S.W.3d at 77.
Witness comments or outbursts “which interfere^ with the normal proceedings of a trial
will not result in reversible error” unless there is a reasonable probability “that the conduct
interfered with the jury’s verdict.” Coble, 330 S.W.3d at 292. “An instruction to disregard
ordinarily renders testimony referring to or implying extraneous offenses harmless.” Brown v.
State, 08-11-00347-CR, 2013 WL 1281917, at *2 (Tex.App.~El Paso Mar. 28, 2013, pet.
refd)(not designated for publication). In assessing prejudice, we balance three factors: (1) “the
magnitude of the [remark-s] prejudicial effect[;]” (2) any curative measures adopted at the trial
level; and (3) the certainty of the punishment outcome, including the strength of the evidence
underlying the punishment. Archie v. State, 221 S.W.3d 695, 700 (Tex.Crim.App. 2007); see
also Brown, 2013 WL 1281917, at *2.
Analysis
During her testimony at the punishment phase of trial, Ribail twice made references to
her status as “victim number nine.” The first reference came during prosecution questioning
about Ribail’s feelings toward Appellant:
[PROSECUTION]:
0

[RIBAIL]:

How do you feel about men now? Well, not
men, just him. How do you feel about him?
I feel sorry for him because now he’s going
6

to get what he deserves.
[DEFENSE COUNSEL]:

I'm sorry. I didn't get that response, Judge.

[RIBAIL]:

I feel sorry for him and he’s going to get
what he deserves, because it took - I’m
victim number nine, and it took —

[DEFENSE COUNSEL]:

At this point, Judge, objection. My [sic] we
approach?

The second reference came during re-direct examination, when the State asked Ribail if
she wanted Appellant to get probation, and she responded, “No.

I’m victim number nine.”

Defense counsel objected again, and the court admonished the State to speak with the witness
and have her only answer the question asked. The trial court also issued an instruction to
disregard sua sponte.
The State advances a three-fold argument against mistrial. First, the State contends that it
proved up the existence of at least nine people who Appellant victimized “physically, sexually,
emotionally, and/or financially,” rendering Ribail’s comment about being victim number nine
factually accurate. Second, the State argues Ribail’s comment regarding other bad acts could
have been cured by an instruction to disregard. Third, the State maintains that the overwhelming
weight of other punishment evidence shows that the jury did not rely on those comments in
reaching its verdict.
We question whether the jury actually took Ribail’s comments to mean that she was
Appellant s ninth rape victim and not merely someone in a line of people he victimized
generally, and we acknowledge the gravity of such a remark at the sentencing stage. See Archie,
221 S.W.3d at 700 (taking gravity of comment as factor in

assessing mistrial ruling). However,

we agree with th€ State that in this instance, the instruction to disregard and the cumulative
weight of the punishment evidence rendered the comments’ prejudice minimal.
7

In Williams v. State, 14-11-00148-CR, 2013 WL 1187426 (Tex.App.—Houston [14th
Dist.] Mar. 21, 2013, no pet.)(mem. op., not designated for publication), the Houston Fourteenth
Court of Appeals held that the trial court’s instruction to disregard cured any prejudice arising
from a witness’s comment that the defendant “murdered peoplef.]” Id. at *8-*9. It also held that
the amount of evidence of other bad acts presented at punishment made it unlikely that the jury’s
verdict was unduly swayed by the stray comment referencing other bad acts. Id. at *10-*1.
Here, the factual circumstances are very similar. The trial court issued an instruction to the jury
to disregard both comments and admonished the State to control the witness and only have her
answer the question asked, evidencing curative measures. The trial court’s corrective actions
mitigated any prejudice under the second Archie factor. See Archie, 221 S.W.3d at 700; Young,
283 S.W.3d at 878. Further, the State presented a large corpus of evidence demonstrating that
Appellant had inter alia been previously convicted of assault, filed a false police report to have
someone arrested, stolen $4,100 from his own mother, and physically and sexually abused prior
girlfriends. Given the strength of the underlying punishment evidence, we are satisfied after
balancing the Archie factors that Ribail’s comments did not substantially affect the jury’s
punishment verdict. The trial court properly exercised its discretion in denying Appellant’s
motion for a mistrial.
Issue Two is overruled.
%

Ineffective Assistance of Counsel
In Issue Three, Appellant argues that trial counsel rendered constitutionally ineffective
assistance by making remarks that undermined the defense theory that Appellant did not sexually
penetrate Ribail.

Specifically, Appellant contends trial counsel’s statement during Ribail’s

cross-examination that Appellant had a vasectomy provided the jury with an explanation as to

8

why investigators found seminal fluid with no spermatozoa cells during Ribail’s sexual assault
examination. The State counters that Appellant failed to show sufficient evidence to rebut the
presumption of competence. We agree.
Standard of Review and Applicable Law
“For a claim of ineffective assistance of counsel to succeed, the record must
demonstrate^]” by a preponderance of the evidence, “both deficient performance by counsel and
prejudice suffered by the defendant.” Menefield v. State, 363 S.W.3d 591, 592 (Tex.Crim.App.
2012); see also Perez v. State, 310 S.W.3d 890, 892-93 (Tex.'Crim.App. 2010).

Counsel’s

representation is constitutionally deficient where it falls “below an objective standard of
reasonableness based unpon prevailing professional norms.”

Id., citing Strickland v.

Washington, 466 U.S. 668, 688, 104 S.Ct. 2052, 2064-65, 80 L.Ed.2d 674 (1984).

To

demonstrate prejudice, the defendant must show that there is a reasonable probability that, but
for counsel s unprofessional errors, the result of the proceeding would have been different.”
Perez, 310 S.W.3d at 893. “The two prongs of Strickland need not be analyzed in a particular
order-the prejudice prong may be analyzed first and the performance prong second.” Ex parte
Martinez, 330 S.W.3d 891, 900 n.19 (Tex.Crim.App. 2011).
The benchmark for judging any claim of ineffectiveness must be whether counsel’s
conduct so undermined the proper functioning of the adversarial process that the trial
relied upon as having produced a just result.”

cannot be

Holland v. State, 761 S.W.2d 307, 320

(Tex.Cnm.App. 1988). We strongly presume that counsel is competent, and that his actions
were strategic and fell within the scope of reasonable professional assistance. Bone v. State, 77
S.W.3d 828, 836 (Tex.Crim.App. 2002). Appellant may rebut that presumption where he shows,
by a preponderance of the evidence, “that there is, in fact, no plausible professional

9

reason for a

specific act or omission.” Bone, 77 S.W.3d at 836. “Ordinarily on direct appeal, the record is
too underdeveloped to sustain the serious charge of ineffective assistance absent examination of
counsel at a motion for new trial hearing.” Murray v. State, 08-12-00062-CR, 2014 WL 340384,
at *3 (Tex.App.~El Paso Jan. 29, 2014, no pet.)(not designated for publication). Thus, we
generally do not reverse for ineffectiveness on direct appeal absent an explanation from trial
counsel “unless the challenged conduct was so outrageous that no competent attorney would
have engaged in it.” Goodspeed v. State, 187 S.W.3d 390, 392 (Tex.Crim.App. 2005)[lntemal
quotation marks omitted].

While a “single egregious error of omission” by counsel could

theoretically rise to the level of ineffective assistance, Ex parte Harrington, 310 S. W.3d 452, 459
(Tex.Crim.App. 2010), generally speaking, “[ejffectiveness is judged by the record as a whole
and not by isolated errors.” Murray, 2014 WL 340384, at *3. “If counsel’s reasons for his
conduct do not appear in the record and there is at least the possibility that the conduct could
have been grounded in legitimate trial strategy. we will defer to counsel’s decisions and deny
relief on an ineffective assistance claim on direct appeal.” Garza v. State, 213 S.W.3d 338, 348
(Tex.Crim.App. 2007).
Analysis
Here, Appellant has failed to demonstrate that counsel’s trial actions fell below an
objective standard of reasonableness as required by Strickland.

Trial counsel referred to

Appellant’s vasectomy while he cross-examined Ribail about her prior sexual activity with
Appellant, asking her, in an apparent attempt to attack her general credibility as a witness, why
she requested Appellant pull out prior to ejaculation as their usual form of birth control if she
knew he had a vasectomy. He also contrasted that usual practice with her claim that

on this

occasion, Appellant ejaculated inside her. This method of impeachment on
witness credibility

10

was not ‘‘so outrageous that no competent attorney would have engaged in it.” Goodspeed, 187
S.W.3d at 392; see, e.g., Ex parte Harrington, 310 S.W.3d at 459 (no reasonable strategy behind
counsel’s advice to client to plead guilty to felony DWT following failure to investigate client’s
truthful claim that a prior conviction used for felony enhancement erroneously identified him as
the convicted party). Nor was the error - assuming arguendo it was, indeed, an error and not
deliberate - so egregious that it “had a seriously deleterious impact on the balance of the
representation.” Frangias v. State, 392 S.W.3d 642, 653 (Tex.Crim.App. 2013). As such, we
apply the presumption that trial counsel was competent and his moves strategic. Further, since
the record is silent as to what trial counsel’s motivations were in engaging in this line of
questioning, and since questioning on this topic could have conceivably been calculated to
impeach Ribail’s credibility, we find that Appellant has failed to proffer sufficient evidence to
rebut the presumption. Garza, 213 S.W.3d at 348. Thus, his claim for ineffective assistance of
counsel is without merit.
Issue Three is overruled. We affirm Appellant’s conviction.

- I

June 20, 2014
YVONNE T. RODRIGUEZ, Justice
Before McClure, C.J., Rivera, and Rodriguez, JJ.
(Do Not Publish)

ll

